VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                       Inspection of

                                                                    VA Regional Office

                                                                    Jackson, Mississippi





                                                                                       July 29, 2013
                                                                                       13-00709-257

             ACRONYMS AND ABBREVIATIONS



HVOC         Homeless Veterans Outreach Coordinator
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
STAR         Systematic Technical Accuracy Review
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline)

                  Report Highlights: Inspection of the
                  VA Regional Office, Jackson, MS

Why We Did This Review                            rating decisions that correctly addressed
                                                  Gulf War veterans’ entitlement to mental
The Veterans Benefits Administration              health treatment. However, staff did not
(VBA) has 56 VA Regional Offices                  provide adequate outreach to homeless
(VAROs), and 1 Veterans Service Center in         veterans in the VARO’s area of jurisdiction.
Cheyenne, Wyoming, that process disability        We could not fully assess the effectiveness
claims and provide a range of services to         of these outreach activities because VBA
veterans. We evaluated the Jackson VARO           needs performance metrics for its homeless
to see how well it accomplishes this mission.     veterans outreach program.

What We Found                                     What We Recommend
Overall, VARO staff did not accurately            The VARO Director should implement a
process 13 (25 percent) of 52 disability          plan to ensure staff enter suspense diaries in
claims reviewed. We sampled claims we             the electronic record and review for
consider to be at higher risk of processing       accuracy the 195 temporary 100 percent
errors, thus these results do not represent the   disability evaluations remaining from the
overall accuracy of disability claims             OIG’s inspection universe of related claims.
processing at this VARO.                Claims    Management also should implement a plan
processing lacked consistent compliance           to ensure effective second signature reviews
with VBA procedures and resulted in paying        of traumatic brain injury claims and
inaccurate and unnecessary financial              adequate outreach to homeless veterans
benefits.                                         within the VARO’s area of jurisdiction.

Specifically, 10 of 30 temporary 100 percent      Agency Comments
disability evaluations we reviewed were
inaccurate. Errors in processing temporary        The VARO Director concurred with our
100 percent disability evaluations generally      recommendations. Management’s planned
occurred because VARO staff did not               actions are responsive and we will follow up
establish suspense diaries in the electronic      as required.
record to schedule medical reexaminations
as required.

Management also did not ensure second
signature reviews and therefore staff
incorrectly processed 3 of 22 traumatic brain
injury claims completed from July through                   LINDA A. HALLIDAY
September 2012.                                          Assistant Inspector General
                                                         for Audits and Evaluations
VARO managers ensured Systematic
Analyses of Operations were complete and
timely. Generally, VARO staff completed

                                                                                               i
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1

Results and Recommendations ........................................................................................................2

    I.     Disability Claims Processing ...............................................................................................2

           Finding 1	            The Jackson VARO Could Improve Disability Claims Processing

                                 Accuracy ......................................................................................................2

                                 Recommendations........................................................................................7

    II. Management Controls..........................................................................................................8

    III. Eligibility Determinations....................................................................................................9

    IV. Public Contact....................................................................................................................10

           Finding 2	            Oversight of the Homeless Veterans Outreach Program Needs

                                 Improvement ..............................................................................................10

                                 Recommendation .......................................................................................11

Appendix A                       VARO Profile, Scope, and Methodology of Inspection ............................12

Appendix B                       Inspection Summary ..................................................................................14

Appendix C                       VARO Director’s Comments.....................................................................15

Appendix D                       Office of Inspector General Contact and Staff Acknowledgments ...........20

Appendix E                       Report Distribution ....................................................................................21





                                                                                                                                                 ii
                                                                  Inspection of VARO Jackson, MS



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Division contributes to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In January 2013, we inspected the Jackson VARO. The inspection focused
Inspection          on the following four protocol areas—disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high-risk claims processing areas of temporary
                    100 percent disability evaluations and traumatic brain injury claims. We also
                    examined three operational activities—Systematic Analyses of Operations
                    (SAOs), Gulf War veterans’ entitlement to mental health treatment, and the
                    homeless veterans outreach program.

                    We reviewed 30 (13 percent) of 225 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We also examined 22 disability claims related
                    to traumatic brain injury (TBI) that VARO staff completed from July through
                    September 2012.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on a draft of this
                       report.


VA Office of Inspector General                                                                 1
                                                                          Inspection of VARO Jackson, MS



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing
Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy            these claims processing issues and assessed their impact on veterans’
                    benefits.

Finding 1           The Jackson VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Jackson VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 13 of the total 52 disability claims we sampled. We
                    identified 77 improper monthly payments to 4 veterans totaling
                    $100,189 from March 2010 until January 2013.

                    We sampled claims related to specific conditions we considered to be at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims processed at this VARO. As
                    reported by VBA’s Systematic Technical Accuracy Review (STAR) program
                    as of December 2012, the overall accuracy of the VARO’s compensation
                    rating-related decisions was 86 percent—4 percentage points below VBA’s
                    FY 2013 target of 90 percent. The STAR program information was not
                    reviewed during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Jackson VARO.

Table 1                          Jackson VARO Disability Claims Processing Accuracy
                                                                      Claims Inaccurately Processed
                                                 Number
                           Type of Claim        of Claims     Affecting        Potential To      Total
                                                Reviewed      Veterans’      Affect Veterans’
                                                               Benefits          Benefits        Errors

                      Temporary 100 Percent
                                                   30             4                  6                10
                      Disability Evaluations
                      Traumatic Brain Injury
                                                   22             0                  3                3
                      Claims
                      Total                        52             4                  9                13
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                      least 18 months or longer and TBI disability claims completed in the fourth quarter
                      FY 2012




VA Office of Inspector General                                                                             2
                                                                   Inspection of VARO Jackson, MS


Temporary           VARO staff incorrectly processed 10 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. We identified five instances where suspense diaries were
                    not established as required. A suspense diary is a processing command that
                    establishes a date when VARO staff must schedule a reexamination. As a
                    suspense diary matures, the electronic system generates a reminder to alert
                    VARO staff to schedule the reexamination.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at risk of paying inaccurate financial benefits. Available
                    medical evidence showed 4 of the 10 processing errors we identified affected
                    veterans’ benefits and resulted in 77 improper monthly payments to
                    4 veterans totaling $100,189 from as early as March 2010 until
                    January 2013. The remaining 6 of the 10 errors had the potential to affect
                    veterans’ benefits. Details on the most significant overpayment and
                    underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) established the need
                       for a follow-up medical examination in October 2009 for a veteran's
                       heart condition. In this case, two VARO staff members processed the
                       veteran’s rating decision; but neither of these claims processing staff
                       entered the suspense diary in the electronic record as required.
                       Therefore, the system could not generate a reminder notification to
                       schedule a reexamination. VA treatment reports showed the veteran’s
                       medical condition had improved and the temporary 100 percent disability
                       evaluation was no longer supportable per VBA’s policies. As a result,
                       VA overpaid the veteran $52,775 over a period of 2 years and 10 months.
                    	 An RVSR did not establish a veteran’s entitlement to special monthly
                       compensation based on loss of use of a creative organ related to prostate
                       cancer. As a result, VA underpaid the veteran $1,768 over a period of
                       1 year and 6 months.

                    VARO staff did not schedule medical reexaminations as required for some of
                    the errors identified. In six cases, we found scheduling delays of
                    approximately 1 year and 8 months to 3 years and 5 months. An average of
                    approximately 2 years and 4 months elapsed from the time staff should have
                    scheduled these medical reexaminations until January 2013.


VA Office of Inspector General                                                                  3
                                                                  Inspection of VARO Jackson, MS


                    Summaries of the total 10 errors we identified follow.

                    	 Five errors occurred when staff did not establish suspense diaries in the
                       electronic record as required; thus, the system did not generate automated
                       alert notifications to schedule medical reexaminations.
                    	 Two errors occurred when staff did not timely take final actions to reduce
                       veterans’ benefits after notifying veterans of the intent to do so. On
                       average, approximately 1 year elapsed from the time staff should have
                       reduced benefits until January 2013. The delays ranged from 2 months to
                       1 year and 11 months.
                    	 One error occurred when an RVSR did not establish a future
                       reexamination date for a temporary 100 percent disability evaluation
                       related to prostate cancer as required. Reexaminations are required for
                       temporary 100 percent disability evaluations except in cases where the
                       evidence shows a veteran’s medical condition is permanently and totally
                       disabling—at which time the RVSR is required to establish entitlement to
                       Dependents' Educational Assistance. In this case, the RVSR did neither,
                       thereby increasing the risk that the veteran would receive inaccurate
                       payments or be unaware of the education benefits for which his
                       dependents are entitled.
                    	 One error occurred when staff inappropriately cancelled the suspense
                       diary but did not schedule the medical reexamination as required, thereby
                       removing the reminder for VARO staff to review the temporary
                       evaluation again at a later date.
                    	 One error occurred when an RVSR did not establish entitlement to
                       special monthly compensation for a medical condition related to prostate
                       cancer.

                    In November 2009, VBA provided refresher guidance to VARO staff about
                    the need to input suspense diaries to the electronic record to provide
                    reminders to schedule medical reexaminations. However, VARO managers
                    had no oversight procedure in place to ensure staff established suspense
                    diaries, scheduled reexaminations, or followed up timely to reduce benefits.
                    Temporary 100 percent disability evaluations and related monthly benefits
                    could have continued uninterrupted over veterans’ lifetimes if we had not
                    identified the need for VARO staff to take required actions to schedule
                    reexaminations.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response         Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
to Prior Audit      the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then-Acting Under Secretary for

VA Office of Inspector General                                                                 4
                                                                   Inspection of VARO Jackson, MS


                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    and then June 30, 2012, and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing this review, which is critical to minimize the
                    financial risk of making inaccurate benefits payments. To date, our national
                    audit recommendation for VBA to review all temporary 100 percent
                    disability evaluations remains open. We do not intend to close this
                    recommendation with VBA until our inspection results show a significant
                    decrease in the types of errors identified during our national audit.

                    During our 2013 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the list of cases needing corrective actions that VBA provided
                    to the Jackson VARO for review. We determined VARO staff accurately
                    reported taking actions, such as inputting suspense diaries or scheduling
                    reexaminations, in all 40 cases we reviewed. However, in comparing VBA’s
                    national review lists with our data on temporary 100 percent disability
                    evaluations, we found seven cases involving prostate cancer or
                    non-Hodgkin’s lymphoma that VBA had not identified. We could not
                    determine why VBA did not identify these cases; however, we will continue
                    monitoring this situation as VBA works to complete its national review.
Follow-Up to        Our prior report, Inspection of the VA Regional Office, Jackson, MS (Report
Prior VA OIG        No. 10-02460-240, dated September 3, 2010), stated 24 of the 30 total
Inspection
                    temporary 100 percent disability evaluations reviewed had processing errors.
                    The majority of the errors occurred because staff cancelled reminder
                    notifications alerting them to schedule medical reexaminations; thus, they
                    did not schedule the examinations. In response to our recommendations, the
                    VARO Director reported staff received refresher training on processing
                    reminder notifications and scheduling VA examinations. The Director
                    amended the workload management plan to require staff to review a work
                    items cancellation report on a monthly basis. The OIG closed this
                    recommendation in February 2011.

                    During our January 2013 inspection, 1 of the 30 cases we reviewed involved
                    VARO staff not taking the required action to schedule a required medical
                    reexamination after receiving a reminder notification to do so. However,
                    since staff properly processed most reminder notifications we reviewed
                    during our inspection, we determined the corrective actions put in place to
                    address our 2010 inspection results were effective.



VA Office of Inspector General                                                                   5
                                                                   Inspection of VARO Jackson, MS


TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, dated May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring accurate TBI claims rating decisions. In
                    May 2011, VBA provided guidance to VARO Directors to implement a
                    policy requiring a second signature on each TBI case an RVSR evaluates
                    until the RVSR demonstrates 90 percent accuracy in TBI claims processing.
                    The policy indicates second-signature reviewers come from the same pool of
                    staff as those used to conduct local station quality reviews. Further, the
                    policy directs VAROs to use data obtained during the second-signature
                    requirement period to identify and address training needs.

                    VARO staff incorrectly processed 3 of 22 TBI claims we reviewed—none of
                    these processing errors affected veterans’ benefits. Summaries of the errors
                    follow.

                    	 In two cases, RVSRs used incomplete medical examinations to evaluate
                       TBI residual disabilities. One case resulted in an incorrect evaluation
                       because the examiner did not assess the severity of a veteran’s headaches
                       due to TBI. In the other case, the examiner did not assess or diagnose a
                       residual disability despite medical evidence in the report noting the
                       veteran suffered daily headaches after exposure to blasts. VBA policy
                       requires that VSC staff return examination reports that are insufficient for
                       rating purposes to the examining facilities for correction. Neither VARO
                       staff nor we can ascertain all of the residual disabilities of a TBI without
                       adequate or complete medical evidence.
                    	 In the remaining case, an RVSR granted a veteran permanent total
                       disability, although medical evidence showed the veteran’s condition had
                       improved and did not support such an evaluation. The RVSR also did
                       not consider a seizure disorder associated with the veteran’s TBI in
                       making the rating decision.

                    A local VARO policy required staff from the Quality Review Team (QRT)
                    to conduct second-signature reviews for all TBI claims; however,
                    management had no mechanism in place to ensure staff complied with VBA
                    or local second signature policies. Of the total 22 TBI disability claims we
                    reviewed, only 7 had the required second signatures by QRT staff. In the
                    15 remaining cases, including the 3 cases we found with errors, 12 did not
                    have additional reviews for the required second signatures. The remaining
                    3 cases had second-signature review, but QRT staff did not complete those


VA Office of Inspector General                                                                   6
                                                                  Inspection of VARO Jackson, MS


                    reviews as required by local policy. Had VARO staff followed VBA or their
                    own local second-signature policy, the second reviewer may have recognized
                    the errors we identified and taken corrective actions.

Follow-Up to        Our prior report, Inspection of the VA Regional Office Jackson, MS (Report
Prior VA OIG        No. 10-02460-240, dated September 3, 2010), stated VARO staff correctly
Inspection
                    processed all 17 TBI claims staff completed from January through
                    March 2010. Comparatively, results of the 2013 inspection show staff
                    incorrectly processed 3 of the 22 claims completed from July through
                    September 2012 despite a stringent local policy requiring all TBI claims
                    undergo a secondary review for accuracy. However, VARO management
                    did not have procedures in place to ensure staff complied with the local
                    policy to forward TBI claims to QRT staff for the required secondary review.

                    Recommendations

                    1.	 We recommend the Jackson VA Regional Office Director develop and
                        implement a plan to ensure claims processing staff input suspense diaries
                        in the electronic record and schedule medical reexaminations as required.
                    2.	 We recommend the Jackson VA Regional Office Director develop and
                        implement a plan to review the 195 temporary 100 percent disability
                        evaluations remaining from our inspection universe and take appropriate
                        action.
                    3.	 We recommend the Jackson VA Regional Office Director develop and
                        implement a plan to ensure compliance with Veterans Benefits
                        Administration and local second-signature requirements for traumatic
                        brain injury claims.

Management          The VARO Director concurred with our recommendations. Subsequent to
Comments            our inspection, VARO staff created a standardized operating procedure that
                    provides staff guidance on entering future examination diaries in the
                    electronic record. The newly implemented procedure also establishes
                    validation procedures to ensure staff enter diaries during monthly quality
                    reviews.

                    As recommended, VARO staff created a plan to review the 195 cases
                    remaining from the OIG’s inspection universe. Management expects to
                    complete reviews and necessary actions for the remaining cases by
                    September 30, 2013. Additionally, to ensure effective second signature
                    reviews of TBI claims, management issued a formal directive to staff on
                    VBA’s second signature policy and directed staff from the Quality Review
                    Team to monitor compliance during local quality reviews.

OIG Response        The Director’s comments and actions are responsive to the recommendations.




VA Office of Inspector General                                                                 7
                                                               Inspection of VARO Jackson, MS


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations
                    whether VSC staff used adequate data to support analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 SAOs
                    annually.

                    VARO management ensured SAOs contained sufficient analyses using
                    appropriate data, identified deficiencies, and made recommendations for
                    improvements where appropriate. SAOs were also submitted by the required
                    due date. As such, we made no recommendation for improvement in this
                    area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office Jackson, MS
Prior VA OIG        (Report No. 10-02460-240, dated September 3, 2010), we determined VARO
Inspection          staff followed VBA policy when completing SAOs. Results of our current
                    inspection show staff continue to follow VBA policy when processing
                    SAOs.




VA Office of Inspector General                                                             8
                                                                 Inspection of VARO Jackson, MS


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA, whenever an RVSR denies a Gulf War veteran service
Disorders           connection for any mental disorder, the RVSR must consider whether the
                    veteran is entitled to receive mental health treatment. However, RVSRs
                    should address entitlement to mental health care in their decisions when the
                    entitlement can be granted.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider Gulf War veterans’ entitlement to mental
                    health care treatment when denying service connection for a mental disorder.
                    This pop-up notification does not generate if a previous decision did not
                    address entitlement to mental health services and a mental condition is not
                    part of the current claim.

                    VARO staff did not properly address whether 2 of 30 Gulf War veterans
                    were entitled to receive treatment for mental disorders despite medical
                    evidence in the claims folder showing the disorders were diagnosed within
                    2 years from the veterans release from active military service. As a result,
                    veterans may be unaware of their entitlement to treatment for mental
                    disorders and may not get the care they need.

                    Because most of the decisions we reviewed were accurately processed, we
                    determined VARO staff generally follow VBA’s policy when making mental
                    health care treatment decisions for Gulf War veterans; therefore, we made no
                    recommendation for improvement in this area.




VA Office of Inspector General                                                                9
                                                                  Inspection of VARO Jackson, MS


                     IV. Public Contact

Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             service. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of the 20 VAROs that VA
                     determined to have the largest veteran populations. VBA guidance, last
                     updated in September 2002, directed that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.          These requirements include
                     developing and updating a directory of local homeless shelters and service
                     providers. Additionally, the coordinators should attend regular meetings
                     with local homeless service providers, community government, and
                     advocacy groups to provide information on VA benefits and services.

 Finding 2	          Oversight of the Homeless Veterans Outreach Program Needs
                     Improvement

                     The Jackson VARO has jurisdiction over veterans residing in the State of
                     Mississippi and has a part-time Homeless Veterans Outreach Coordinator
                     (HVOC). The HVOC did not regularly contact or provide information to
                     homeless shelters and service providers to all areas under VARO jurisdiction
                     as required by VBA policy. This occurred because VARO management did
                     not have mechanisms in place to provide effective oversight or assess
                     outreach efforts. As a result, homeless shelters and service providers may
                     not be aware of available VA benefits and services.

                     Our review confirmed the HVOC maintained a collaborative partnership
                     with homeless coordinators at VA Medical Centers; however, contact with
                     shelters and service providers was limited to Jackson and Hattiesburg, MS.
                     Further, VARO managers were unaware that staff had not contacted the
                     majority of the homeless shelters and service providers within the VARO’s
                     jurisdiction or updated their homeless veterans resource directory as
                     required.

                     Had management provided adequate oversight of the VARO’s outreach
                     efforts, it may have determined that staff were not contacting homeless
                     shelters and service providers within the VARO’s jurisdiction as required.
                     Management may have also realized shelters and service providers were not
                     receiving information on VA benefits and services available to homeless
                     veterans. VBA also needs performance measures for its homeless veterans
                     outreach program. Without such measures, we cannot fully assess the
                     effectiveness of its outreach activities.


 VA Office of Inspector General                                                               10
                                                                   Inspection of VARO Jackson, MS


                    Recommendation

                    4.	 We recommend the Jackson VA Regional Office Director develop and
                        implement a plan to ensure staff update the resource directory and
                        regularly contact and provide outreach to homeless shelters and service
                        providers within the VA Regional Office’s jurisdiction.

Management          The VARO Director concurred with our recommendations. Management
Comments            requires staff to provide weekly updates to ensure staff regularly updates its
                    resource directory and provides outreach to homeless shelters and service
                    providers. VARO staff also began using social media to assist in their
                    outreach efforts to homeless veterans in Mississippi.

OIG Response        The Director’s comments and actions are responsive to the recommendations.




VA Office of Inspector General                                                                 11
                                                                 Inspection of VARO Jackson, MS


Appendix A          VARO Profile, Scope, and Methodology of Inspection

Organization        The Jackson VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of January 2013, the Jackson VARO had a staffing level of 197 full-time
                    employees. Of this total, the VSC had 170 employees assigned.

Workload            As of December 2012, the VARO reported 9,324 pending compensation
                    claims. The average time to complete claims was 316.8 days—66.8 days
                    more than the national target of 250.

Scope               VBA has 56 VAROs, and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the Jackson VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (13 percent) of 225 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of November 30,
                    2012. We reviewed 30 claims and provided VARO management with
                    195 claims remaining from our universe of 225 for its review. As follow-up
                    to our national audit, we also sampled 40 temporary 100 percent disability
                    evaluations from the SharePoint list VBA provided to the VARO as part of
                    its national review. We also reviewed the 22 total TBI-related disability
                    claims VARO staff completed from July through September 2012.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012 and
                    FY 2013. We examined 30 completed claims processed for Gulf War
                    veterans from July through September 2012 to determine whether VSC staff
                    had addressed entitlement to mental health treatment in the rating decision

VA Office of Inspector General                                                               12
                                                                    Inspection of VARO Jackson, MS


                    documents as required. Further, we assessed the effectiveness of the
                    VARO’s homeless veterans outreach program by reviewing its directory of
                    homeless shelters and service providers and determining whether staff
                    regularly attended meetings and provided information on VA benefits and
                    services.

Data                We used computer-processed data from the Veterans Service Network’s
Reliability         Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the Jackson VARO did not
                    disclose any problems with data reliability.

                    While this report references VBA’s STAR data, the overall accuracy of the
                    VARO’s compensation rating-related decisions was 86 percent; 4 percentage
                    points below VBA’s FY 2012 target of 90 percent. This data was not
                    reviewed as part of this inspection.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                   13
                                                                             Inspection of VARO Jackson, MS


Appendix B              Inspection Summary

                        Table 2 reflects the operational activities inspected, applicable criteria, and
                        whether or not we had reasonable assurance of VARO compliance.

                             Table 2. Jackson VARO Inspection Summary
                                                                                                Reasonable
    Five Operational                                   Criteria                                 Assurance of
        Activities                                                                              Compliance
       Inspected
                                                                                                Yes     No
                                           Disability Claims Processing
    1. Temporary         Determine whether VARO staff properly processed temporary
       100 Percent       100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
       Disability                                                                                       X
                         3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2,
       Evaluations       Section J) (M21-1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

    2. Traumatic         Determine whether VARO staff properly processed claims for all
       Brain Injury      disabilities related to in-service TBI. (FL 08-34 and FL 08-36)                X
       Claims            (Training Letter 09-01)

                                              Management Controls
    3. Systematic        Determine whether VARO staff properly performed formal
       Analysis of       analyses of their operations through completion of SAOs. (M21-4,        X
       Operations        Chapter 5)

                                            Eligibility Determinations
    4. Gulf War          Determine whether VARO staff properly processed Gulf War
       Veterans’         veterans’ claims, considering entitlement to medical treatment for
       Entitlement to    mental illness. (38 United States Code 1702) ( M21-1MR Part IX,         X
       Mental Health     Subpart ii, Chapter 2) (M21-1MR Part III, Subpart v, Chapter 7) (FL
       Treatment         08-15) (38 CFR 3.384) (38 CFR 3.2)
                                                  Public Contact
    5. Homeless          Determine whether VARO staff provided effective outreach
       Veterans          services. (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular
       Outreach          27-91-4) (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II,              X
       Program           Chapter 2)

       Source: VA OIG
       CFR=Code of Federal Regulations, FL= Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                              14
                                                                          Inspection of VARO Jackson, MS


Appendix C              VARO Director’s Comments



                Department of                                 Memorandum
                Veterans Affairs
        Date:      July 11, 2013

       From:       Director, VA Regional Office Jackson, Mississippi

        Subj:      Inspection of the VA Regional Office, Jackson, Mississippi

         To:       Assistant Inspector General for Audits and Evaluations (52)


                1.	 The Jackson VARO’s comments are attached on the OIG Draft Report:
                    Inspection of the VA Regional Office, Jackson, Mississippi.

                2.	 Please refer questions to Mr. Thomas Sanders, Acting Director, at 601-364­
                    7010.


                     (Original signed)


                   Thomas O. Sanders




                   Attachment




VA Office of Inspector General                                                                       15
                                                                     Inspection of VARO Jackson, MS


Attachment


                  Inspection of the VA Regional Office, Jackson, Mississippi
                              Draft Report Dated 06-20-2013

                            We recommend the Jackson VA Regional Office Director develop
                            and implement a plan to ensure claims processing staff input
  Recommendation 1:
                            suspense diaries in the electronic record and schedule medical
                            reexaminations as required.

  RO Comments               Concur

                            The Jackson RO has implemented a new (SOP) for future exam
                            diaries which clearly outlines our new directives. These directives
                            advise employees concerning current VA guidelines in reference to
                            determining when there is a need to verify either the continued
                            existence or the current severity of a disability. Generally, it defines
                            the need for reexaminations and when they will be required if it is
                            likely that a disability has improved, or if evidence indicates there
                            has been a material change in a disability or that the current rating
                            may be incorrect. Individuals for whom reexaminations have been
                            authorized and scheduled are required to report for such
  VA Response:              reexaminations.
                            We have attached a copy of the SOP and the work validation
                            procedures that have been implemented in the Jackson Veterans
                            Service Center. By implementing this new SOP and procedure, we
                            believe that we have taken action to correct the deficiency identified
                            by the OIG auditors during the site visit. VSC employees have
                            received training on these new procedures in team meetings on 06­
                            26-2013 and 07-10-2013. We project that all VSC employees will
                            have completed training on these SOPS during team meetings NLT
                            07-12-2013.

  Supporting                        SOP Future VA Exam Diaries 06-26-13
  Documentation:                    FLASH - ROUTINE

                            We request closure of this recommendation based on the evidence
  Status:
                            provided above.

                            We recommend the Jackson VA Regional Office Director develop
                            and implement a plan to review the 195 temporary 100 percent
  Recommendation 2:
                            disability evaluations remaining from our inspection universe and
                            take appropriate action.



VA Office of Inspector General                                                                    16
                                                                     Inspection of VARO Jackson, MS



  RO Comments               Concur

                            The Jackson VSC Manager has developed a plan to review the
                            pending one hundred ninety five (195) temporary 100 percent cases
                            within a fixed period of time.
                            The plan is attached to this document for your review. This plan
                            clearly outlines the work validation procedures to ensure that the plan
                            is followed within the Jackson VSC. As the recommended plan has
  VA Response:              been developed and is being implemented and compliance tracked,
                            we submit that the requirements of the recommendation have been
                            fully met.
                            VSC employees have received training on these new procedures in
                            team meetings on 06-26-2013 and 07-10-2013. We project that all
                            VSC employees will have completed training on this SOP during
                            team meetings NLT 07-12-2013.
  Supporting
                            Plan for Temporary 100 Evaluations
  Documentation:
                            It is expected that the reviews outlined in the plan will be completed
                            by the end of FY 2013. Once we are complete with our reviews, we
  Status:
                            will provide notice. Notification is requested if closure of this action
                            item is dependent on certification of completion of the reviews.

                            We recommend the Jackson VA Regional Office Director develop
                            and implement a plan to ensure compliance with Veterans Benefits
  Recommendation 3:
                            Administration and local second signature requirements for traumatic
                            brain injury claims.

  RO Comments               Concur




VA Office of Inspector General                                                                    17
                                                                  Inspection of VARO Jackson, MS



                            The Jackson VSC Manager has issued a formal directive in the form
                            of a memorandum, which outlines the Office of Field Operations
                            guidance with respect to second signatures being required on TBI
                            cases until a RVSR achieves a 90% accuracy after a review of 10
                            cases. A copy of this memorandum is attached for your review.
                            A log is kept by the QRT team which records all cases that receive
                            second signatures on SME review. Additionally, the Jackson VSC
                            Workload Management Plan has been amended for tighter control of
                            TBI cases in the Special Ops Lane. Additionally, the Jackson VSC
  VA Response
                            Workload Management Plan has been amended to require the VSC
                            MA to review a sampling of completed TBI cases in conjunction
                            with each quarterly MAPD Compliance SAO to monitor for VSC
                            compliance with OFO and VACO directives.
                            Finally, Jackson VSC RVSRs and DROS are in the process of
                            completing the TPSS-TBI modules. This training will assist with
                            improving accuracy on TBI cases within the Jackson VSC. These
                            actions by the VSC Manager has corrected the deficiency identified
                            by the OIG found during the site visit.

  Supporting                        Review Rating Memo OIG 06-27-2013
  Documentation:                    VSC WMP 07-11-2013

                            We request closure of this recommendation based on the evidence
  Status:
                            provided above.

                            We recommend the Jackson VA Regional Office Director develop
                            and implement a plan to ensure staff update the resource directory
  Recommendation 4:
                            and regularly contact and provide outreach to homeless shelters and
                            service providers within the VA Regional Office’s jurisdiction.

  RO Comments               Concur




VA Office of Inspector General                                                               18
                                                                    Inspection of VARO Jackson, MS



                            The Jackson VSC Public Contact Coach has developed a homeless
                            outreach contact spreadsheet that will be maintained by the Homeless
                            Coordinator on a weekly basis. The spreadsheet shows the date the
                            spreadsheet is updated along with new information and updated
                            contact information. The Homeless Outreach Coordinator will be
                            providing weekly updates to the Public Contact Supervisor to ensure
                            that the Jackson VSC regularly conducts/contacts Homeless Outreach
                            to all Homeless Shelters and service providers with Jackson ROs area
                            of jurisdiction.
                            The Homeless Coordinator is working with the Director of the State
                            Veterans Affairs Board at the Jackson Regional Office to compile a
                            list of homeless shelters and providers throughout the State of
                            Mississippi that he plans to visit in future months. The SVAB
                            Director has contacted each of the County Service Officers
  VA Response               throughout the State of Mississippi who are attempting to gather
                            homeless shelter information.     Once all of the information is
                            received, we will add this information to our spreadsheet/resource
                            directory for homeless outreach.
                            The Jackson VSC has also created a Facebook page to assist in
                            conducting regular Homeless contact and outreach throughout the
                            state.   This Facebook page will be instrumental in sharing
                            information with homeless providers, doing daily or weekly
                            information “pushes” to places that we routinely cannot quickly
                            reach on a daily or weekly basis. The address for the Facebook page
                            is www.facebook.com/VARegionalOfficeHomelessOutreach.
                            As the recommended plan has been developed and is being
                            implemented and compliance tracked, we submit that the
                            requirements of the recommendation have been fully met.
  Supporting
                            Homeless Resource Guide
  Documentation:
                            As the many contacts that are needed to complete and update of the
                            resource guide and homeless shelter spreadsheet are ongoing, we
                            recognize that the recommendation may need to remain open. Once
  Status:
                            those actions are complete, we will provide notice. Notification is
                            requested if closure of this action item is dependent on certification
                            of completion the updated guide and spreadsheet.




VA Office of Inspector General                                                                  19
                                                         Inspection of VARO Jackson, MS


Appendix D          Office of Inspector      General       Contact       and     Staff
                    Acknowledgments

                      OIG Contact	       For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Danny Clay
                                         Kelly Crawford
                                         Lee Giesbrecht
                                         Ambreen Husain
                                         Kerri Leggiero-Yglesias
                                         Suzanne Murray
                                         Lisa Van Haeren
                                         Nelvy Viguera Butler
                                         Mark Ward




VA Office of Inspector General                                                       20
                                                                 Inspection of VARO Jackson, MS


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Southern Area Director
                    VA Regional Office Jackson Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Thad Cochran, Roger Wicker
                    U.S. House of Representatives: Gregg Harper, Alan Nunnelee, Steve Palazzo,
                       Bennie G. Thompson




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               21
